   June 30, 2003




Health Care


Franchise Business Activity
Contracts for Medical Services
(D-2003-113)




              Department of Defense
          Office of the Inspector General
Quality              Integrity        Accountability
  Additional Copies

  To obtain additional copies of this report, visit the Web site of the Inspector
  General of the Department of Defense at www.dodig.osd.mil/audit/reports or
  contact the Secondary Reports Distribution Unit of the Audit Followup and
  Technical Support Directorate at (703) 604-8937 (DSN 664-8937) or fax (703)
  604-8932.

  Suggestions for Future Audits

  To suggest ideas for or to request future audits, contact the Audit Followup and
  Technical Support Directorate at (703) 604-8940 (DSN 664-8940) or fax (703)
  604-8932. Ideas and requests can also be mailed to:

                    ODIG-AUD (ATTN: AFTS Audit Suggestions)
                    Inspector General of the Department of Defense
                          400 Army Navy Drive (Room 801)
                              Arlington, VA 22202-4704

  Defense Hotline

  To report fraud, waste, or abuse, contact the Defense Hotline by calling (800)
  424-9098; by sending an electronic message to Hotline@dodig.osd.mil; or by
  writing to the Defense Hotline, The Pentagon, Washington, DC 20301-1900. The
  identity of each writer and caller is fully protected.




Acronyms

FAR                   Federal Acquisition Regulation
FBA                   Franchise Business Activity
WHMC                  Wilford Hall Medical Center
WRAMC                 Walter Reed Army Medical Center
           Office of the Inspector General of the Department of Defense
Report No. D-2003-113                                                          June 30, 2003
   (Project No. D2002LF-0110)

        Franchise Business Activity Contracts for Medical Services

                                  Executive Summary

Who Should Read This Report and Why? Contract personnel responsible for
procuring medical services and military and civilian health care professionals within the
military health system should read this report. Those responsible for acquiring and
providing medical services should be interested in the issue of acquiring medical services
through the Department of the Treasury, Franchise Business Activity contracts.

Background. The Office of the Assistant Secretary of Defense (Health Affairs)
exercises authority, direction, and control over the facilities, funding, personnel,
programs, and other medical resources within DoD. TRICARE is a regionally managed
health care program for active duty and retired members of the uniformed services, their
families, and survivors. TRICARE brings together the health care resources of the Army,
the Navy, and the Air Force and supplements them with networks of civilian health care
professionals to improve access to high quality service while maintaining the capability
to support military operations. To help fill needs that cannot be satisfied through medical
facilities or through TRICARE contracts, the Military Departments issue non-TRICARE
contracts. In 2002, DoD spent about $1.2 billion to acquire medical services through
non-TRICARE contracts.

There are a variety of contractual methods available to medical facilities to fulfill their
supplemental needs, such as the General Services Administration-managed Federal
Supply Schedule contracts, Veteran’s Administration contracts, local contracts with
individuals or commercial organizations, and nationwide or regional contracts. The
Franchise Business Activity provides another contractual method used by the military
health system to fill medical service requirements.
The Department of the Treasury created the Franchise Business Activity to provide
Federal organizations common financial and administrative support services on a
reimbursable basis. DoD was not centrally monitoring the use of Franchise Business
Activity contracts and could not provide information on how much was spent through the
Franchise Business Activity. The Franchise Business Activity informed us that DoD
spent about $19.1 million in FY 2002 on direct provider medical services such as doctors,
nurses, and others working directly with beneficiaries.

Results. According to the Franchise Business Activity, in FY 2002, 19 DoD medical
facilities acquired medical services using Franchise Business Activity contracts. The use
of Franchise Business Activity contracts to acquire medical services may not be in the
best interest of DoD medical facilities. We questioned:

       •    whether DoD medical facilities should use the Franchise Business Activity
            authority to acquire financial and administrative support services as a means
            to acquire medical services, and
       •   why DoD would acquire medical services through Franchise Business
           Activity contracts, considering that it has extensive medical service
           contracting capabilities of its own.

Also, the scope of work for one contract was so broad that medical contractors with
lower-priced bids were considered technically inferior and not selected partly because
prior experience was only in medically related labor categories. DoD may also be
incurring unnecessary costs through surcharge fees ranging from $0.38 million to
$1.9 million (for FY 2002). Further, according to the Navy, contracting for medical
services through the Franchise Business Activity may expose the Government to
unnecessary risk through potentially illegal and unenforceable contracts. The Assistant
Secretary of Defense (Health Affairs) should determine whether it is appropriate for the
military health system to use the Franchise Business Activity to acquire medical services.
If determined to be appropriate, the Assistant Secretary should issue guidance on the use
of Franchise Business Activity contracts.

Management Comments and Audit Response. The Assistant Secretary of Defense
(Health Affairs) concurred with the finding and the intent of the recommendations.
Guidance will be issued to the Military Departments indicating that there is no legal
authority to use the Franchise Business Activity to enter into personal services contracts
for health care services. The Assistant Secretary of Defense (Health Affairs) comments
were responsive and additional comments are not required. As a result of management
comments received from the Director, Defense Procurement and Acquisition Policy, we
deleted the recommendation addressed to that office. We also clarified a citation for
language taken from Senate Report 107-151. See the Finding section of the report for a
discussion of management comments and the Management Comments section of the
report for the complete text of the comments.




                                             ii
Table of Contents

Executive Summary                                                      i

Background                                                             1

Objectives                                                             2

Finding
     Acquiring Medical Services Through Franchise Business Activity
        Contracts                                                      3

Appendixes
     A. Scope and Methodology                                         11
         Prior Coverage                                               12
     B. Report Distribution                                           13

Management Comments
     Assistant Secretary of Defense (Health Affairs)                  15
     Defense Procurement and Acquisition Policy                       17
Background
    Military Health System. The Office of the Assistant Secretary of Defense
    (Health Affairs) exercises authority, direction, and control over the facilities,
    funding, personnel, programs, and other medical resources within DoD. Its
    responsibilities include establishing policies, procedures, and standards that
    govern DoD health care programs. The mission of the military health system is to
    enhance DoD and our Nation’s security by providing health care support for the
    full range of military operations and sustaining the health of DoD health care
    beneficiaries.

    TRICARE is a regionally managed health care program for active duty and retired
    members of the uniformed services, their families, and survivors. TRICARE
    brings together the health care resources of the Army, the Navy, and the Air Force
    and supplements them with networks of civilian health care professionals to
    provide improved access to high quality service while maintaining the capability
    to support military operations. To help fill needs that cannot be satisfied through
    DoD medical facility personnel or through TRICARE contracts, the Military
    Departments use non-TRICARE contracts. Those non-TRICARE contracts are
    used to acquire medical services, such as health care providers, laboratory testing
    services, and ancillary services. In 2002, DoD spent about $1.2 billion to acquire
    medical services through non-TRICARE contracts.

    There are a variety of different contractual methods available to help DoD
    medical facilities fill their supplemental needs, such as the General Services
    Administration-managed Federal Supply Schedule contracts, Veterans
    Administration contracts, local contracts with individuals or commercial
    organizations, and nationwide or regional contracts. The Franchise Business
    Activity (FBA), within the Department of the Treasury, provides another
    contractual method used by the military health system to fill medical service
    requirements. Although DoD does not track the extent of medical services
    contracted through the FBA, FBA officials estimated that DoD spent about
    $19.1 million in FY 2002 on direct provider medical services. That amount does
    not include funds spent by the military health system or other DoD organizations
    for non-medical services or support.

    FBA Contracts. The Government Management Reform Act of 1994, Public
    Law 103-356, section 2170, October 13, 1994, authorized six franchise fund pilot
    programs in different Executive departments. Public Law 104-208, “Omnibus
    Consolidated Appropriations Act of 1997,” September 30, 1996, established the
    pilot fund for the Department of the Treasury, and Public Law 106-554,
    “Consolidated Appropriations Act of 2001,” December 21, 2000, made the
    Treasury Department’s pilot program permanent. The fund was established “for
    the maintenance and operation of such financial and administrative support
    services as the Secretary determines may be performed more advantageously as
    central services.” As part of the franchise fund program, the Department of the
    Treasury created the FBA to provide Federal organizations common financial and
    administrative support services on a reimbursable basis.




                                         1
    To acquire medical services using an FBA contract, the DoD medical facilities
    enter into an interagency agreement with the FBA and place purchase calls or task
    orders against existing contracts between the FBA and a vendor. According to
    FBA officials, the surcharge for using its services varies by task order from
    2 percent to 10 percent.

    Military Department Medical Contracting Responsibilities. The DoD
    approach to acquiring supplemental medical services for their medical facilities is
    decentralized. The Army’s Health Care Acquisition Activity is a headquarters
    directorate reporting to the Army Surgeon General and the Commanding General
    of the Army Medical Command. The Army Acquisition Activity provides
    medical service acquisition support to Army Components worldwide and
    oversight to seven regional contracting offices (two contracting centers and five
    contracting offices). However, it views its role as advisory in nature and gives
    Army medical facilities full autonomy to decide what contracting methods to use
    in filling their medical service requirements. The Naval Bureau of Medicine and
    Surgery delegates responsibility to contract for medical services to the Naval
    Medical Logistics Command and the Fleet Industrial Supply Center Norfolk,
    Philadelphia Detachment. However, Navy medical facilities maintain a limited
    degree of discretion in filling supplemental medical service requirements by
    contracting for medical services directly, up to their acquisition authority limit.
    The Air Force has a very decentralized approach toward contracting for
    supplemental medical services and generally leaves such contracting actions and
    decisions up to each medical facility and the base contracting office where the
    medical facility is located.


Objectives
    The audit objective was to evaluate contracting agency and program office
    procedures for award and administration of medical service contracts, excluding
    TRICARE contracts, and to evaluate the management control program applicable
    to the audit objective. During the audit process, we learned that the Military
    Departments were acquiring health care services (for example, physicians, nurses,
    laboratory and pharmacy technicians) through FBA contracts. Because the use of
    FBA contracts is a relatively new method for acquiring medical services that
    could have a significant impact on the military health system, this report
    addresses the use of FBA contracts. Other issues regarding medical service
    contracts and the management control program will be discussed in a separate
    report. See Appendix A for a discussion of scope and methodology and prior
    coverage.




                                         2
           Acquiring Medical Services Through
           Franchise Business Activity Contracts
           According to the FBA, 19 DoD organizations acquired medical services
           totaling about $19.1 million using FBA contracts in FY 2002. The use of
           FBA contracts to acquire medical services may not be in the best interest
           of DoD medical facilities. We question:

                    •   whether DoD medical facilities should use FBA authority for
                        acquiring financial and administrative support services to
                        acquire medical services, and

                    •   why DoD would acquire medical services through FBA
                        contracts considering that it has extensive medical service
                        contracting capabilities.

           Also, the scope of work for one of the two FBA contracts reviewed was so
           broad that medical contractors with lower-priced bids were considered
           technically inferior and not selected partly because prior experience was
           only in medically related labor categories. DoD may also have been
           incurring unnecessary costs by paying surcharge fees on those FBA
           medical contracts. Additionally, the Naval Medical Logistics Command
           contends that using the FBA as a means for acquiring medical services
           may result in illegal and unenforceable contracts that place the medical
           facilities at unacceptable risk.


Use of FBA Contracts
    All three Military Departments used FBA contracts to acquire medical services.
    None of the Military Departments could provide data concerning the extent to
    which they used FBA contracts. However, the FBA documented that 19 DoD
    medical facilities acquired medical services totaling about $19.1 million in
    FY 2002 through FBA contracts, as shown in the table.

                          FY 2002 DoD Medical Services
                            Contracted Through FBA


                                    Number of               Amount
                                  Medical Facilities      (in millions)
           Army                        10                   $13.3
           Navy                         3                     0.4
           Air Force                    6                     5.4

            Total                       19                  $19.1




                                          3
    We reviewed the use of FBA contracts at Walter Reed Army Medical Center
    (WRAMC) and the Air Force’s Wilford Hall Medical Center (WHMC). We were
    not aware that the Navy was also acquiring medical services using FBA contracts
    until after we completed our fieldwork. Therefore, we did not review Navy use of
    FBA contracts at specific Navy medical facilties.


Appropriateness of Using the FBA to Acquire Medical
  Services
    We question whether it is in the best interest of DoD to use FBA contracts to
    acquire medical services for several reasons. We believe that it may not have
    been appropriate for WRAMC and WHMC to acquire medical services using
    FBA authority to provide financial and administrative support services.
    Regardless of the appropriateness of using FBA contracting authority, we
    question why DoD would acquire medical services through FBA contracts when
    the military health system has extensive medical service contracting capabilities
    of its own. Also, the scope of work for one of the two FBA contracts reviewed
    was so broad that medical contractors with lower-priced bids were considered
    technically inferior and not selected partly because prior experience was only in
    medically related labor categories.

    Use of FBA Authority to Provide Administrative Support Services in
    Procuring Medical Services. Public Law 104-208 provided funding for the FBA
    to procure financial and administrative support services that the Secretary of the
    Treasury determined may be more economical to procure as a centralized service.
    The legislative history of the provision suggests that the purpose of the funding
    was to increase competition and to reduce duplication and costs for administrative
    services (Senate Report No. 103-281). The FBA interpreted the phrase
    “administrative support services” to include procurement and contracting, thereby
    allowing it to procure any type of service, including medical.

    The three Military Departments interpreted the FBA authority differently and
    took various approaches to acquiring medical services through the FBA.
    Although the Navy determined that FBA contracts should not be used to acquire
    medical services, the Army and the Air Force had not made similar department-
    wide decisions. Also, DoD had not issued guidance concerning the use of FBA
    contracts for acquiring medical services.

    The Naval Medical Logistics Command determined that the FBA was not an
    appropriate means for acquiring medical services. In August 2000, the Navy
    Bureau of Medicine and Surgery Instruction 4283.1, “Health Care Contracting,”
    was changed to prohibit Navy medical facilities from using FBA contracts to
    acquire medical services. We agree that the Navy position is prudent. However,
    through an FBA data call we identified three Navy medical facilities that used the
    FBA to acquire medical services. We received information from the FBA on
    Navy medical facilities using FBA contracts, and we provided that information to
    the Naval Medical Logistics Command.




                                         4
The Army’s WRAMC, North Atlantic Regional Medical Command, used the
Economy Act to justify using FBA contracts to acquire medical services, which
totaled about $6.9 million in FY 2002, and in effect, transferred its personal
services contracting authority to the FBA. The Economy Act
(sections 1535-1536, title 31, United States Code) provides that, under certain
circumstances, an agency may place an order for goods or services within the
same agency or with other agencies. According to the Federal Acquisition
Regulation (FAR) 17.5, the Economy Act applies when more specific statutory
authority (for example, sources with separate statutory authority such as Federal
Supply Schedule contracts) does not exist and the goods or services cannot be
obtained as conveniently or economically by contracting directly with a private
source. Further, according to Army Medical Command personnel, the authority
to enter into personal services contracts rests with the Commander of the medical
facility who can, in turn, delegate that authority to the FBA. To issue a personal
services contract through the FBA, the Army’s North Atlantic Regional Medical
Command issued a blanket task order and modified its interagency agreement
with the FBA. Although the task order states that the FBA does not have personal
services contract authority, the Army had, in effect, transferred its personal
services contracting authority to the FBA.

The Air Force’s WHMC took another approach to the use of FBA contracts.
WHMC did not use the Economy Act to justify using the FBA to acquire medical
services and did not transfer its personal services contracting authority to the
FBA. Instead, WHMC used a non-personal services FBA contract to acquire
about $4.4 million of medical services in FY 2002, even though those services
were similar to, and integrated with, those provided by Government employees at
the medical facility.

FBA officials stated that they do not have personal services contract authority.
The FAR 37-104 normally requires the Federal Government to obtain employees
by direct hire under procedures set forth in civil service law. The FAR states that
obtaining personal services by contract circumvents those laws, unless Congress
has specifically authorized acquisition of the services by contract. Personal
services contracts are characterized by an employer-employee relationship.
Section 1091, title 10, United States Code, provides DoD with statutory authority
to enter into personal services contracts for health care providers. According to
DoD Instruction 6025.5, “Personal Services Contracts for Health Care Providers,”
January 6, 1995, personal services contracts are the preferred type of contract
when the services provided are similar to those provided by Government
employees in Government facilities and when the services of Government
workers and contractors will be largely integrated.

On its Web site, the FBA states that it can meet an agency’s long-term needs, to
include the crossing of fiscal years, and states that an agency may validly record a
financial obligation at the time it enters into a binding interagency agreement with
the FBA. Further, the Web site states that the FBA can bill the agency or medical
facility before services are rendered, based on the estimate. Although our audit
did not include an analysis of medical facility management of funds transferred to
the FBA, Army Audit Agency Report A-2002-0562-IMH, “Management Controls
for Reimbursable Orders, U.S. Army Garrison Fort Sam Houston,” September 16,
2002, identified a potential funding violation at an Army medical facility that


                                     5
used a FBA contract. The problem occurred when appropriated funds from one
year were used for obligations in another fiscal year. The Army Command’s
Resource Management Office didn’t complete transactions by closing out
reimbursable orders issued to the FBA. Because the FBA operates a revolving
fund, funds remaining on reimbursable orders were applied to the next period.
The nature of the FBA revolving fund and the resulting potential for funding
violations raises an additional concern regarding the appropriateness of
contracting through the FBA.

DoD Capability to Contract for Medical Services. Regardless of whether DoD
can properly use FBA authority to provide financial and administrative support
services for acquiring medical services, we question why DoD would choose to
do so, considering the extensive medical service contracting capability that exists
in the military health system. According to TRICARE Management Activity
officials, DoD spent about $8 billion in FY 2002 acquiring TRICARE medical
services. In addition, DoD spent about $1.2 billion in FY 2002 acquiring non-
TRICARE medical services. As previously mentioned, DoD has medical
contracting organizations, such as the Army’s Health Care Acquisition Activity
and the Naval Medical Logistics Command, that provide contractual support to
DoD medical facilities. Thus, contrary to one of the purposes for establishing the
franchise fund program, we believe DoD use of the FBA to acquire medical
services may result in a duplication of services. At the DoD medical facilities
visited, the primary reason given for acquiring medical services through the FBA
was convenience and timeliness. Considering the extensive DoD contracting
capabilities, medical activities should be able to satisfy the contractual needs of
its medical facilities without using the FBA.

Scope of the FBA Contract. The scope of work for one of the two FBA
solicitations reviewed was so broad that medical contractors with lower-priced
bids were considered technically inferior and not selected partly because prior
experience was only in medically related labor categories. The FBA does not
award separate contracts to fill the medical service requirements of DoD. Instead,
the FBA issues task orders against its existing contracts. Although the solicitation
process for the FBA contract used by WRAMC allowed contractors to bid on
portions of the FBA contract (for example, only medical services), the process for
awarding the FBA contract used by WHMC required the contractors to provide
the entire range of services.

The FBA contract used by WHMC was an approximate $44 million, multi-year
FBA contract that Federal agencies in 27 geographical regions could use to
acquire a full range of services, including administrative, light industrial, medical,
professional, and technical services. Non-medical services comprised more than
half of the labor categories, which included accountants, computer specialists,
engineers, inspectors, and personnel specialists. In the recommendation for
award memorandum, the FBA considered four lower-priced bidders to be
technically inferior and did not select them partly because prior performance was
only in medically related fields. Two of those four bidders had provided
non-FBA contract medical services to DoD, totaling at least $15 million annually
in FYs 2000 and 2001. The bids from the medically oriented companies ranged
from about $26 million to about $41 million, which was $18 million to $3 million
below the winning bid of $44 million. Although it is the prerogative of the FBA


                                      6
to select a contractor who is bidding on the entire range of services, we question
why DoD would want to use a contracting vehicle that may eliminate qualified
medical service contractors. Although technical ability to perform all solicited
services is important, we believe that a contract that requires one contractor to
provide such vastly different services does not necessarily result in the best value
in price and technical ability for the DoD medical facilities.

Surcharges Paid. Contracting for medical services through the FBA may result
in additional costs to DoD through surcharges. We attempted to determine the
total amount of surcharges paid to the FBA in FY 2002 by WRAMC, WHMC and
DoD. WRAMC, WHMC, and DoD could not provide that information. The
WRAMC and the WHMC interagency agreements did not specify a surcharge
percentage. When we asked FBA officials for the total amount of surcharges paid
in FY 2002 by DoD (and by WRAMC and WHMC specifically), they stated that
surcharges ranged from 2 percent to 10 percent and that exact amounts would not
be provided because the information was proprietary. If DoD does not know the
amount of surcharges paid, it is difficult to judge the cost-effectiveness of the
contracting service provided by the FBA. Further, considering the volume of
medical services contracted for by DoD, it seems illogical that the FBA should be
able to acquire medical services more cost-effectively than DoD. Based on the
FBA estimate of 2 percent to 10 percent, surcharges in FY 2002 for the
$19.1 million medical services could have ranged from $0.38 million to
$1.9 million.

Potential Risks to the Military Health System. Navy officials stated that using
FBA contracts to acquire direct health care providers might result in illegal,
unenforceable contracts that expose the medical facilities to unacceptable risk.
According to the Legal Counsel, Naval Medical Logistics Command, the FBA
exceeded its charter and acted outside statutory authority by marketing direct
health care providers to Navy medical facilities. The Navy based its decision to
prohibit the use of FBA contracts for acquiring medical services, in part, on the
belief that the FBA lacks the authority to award personal services contracts. Also,
Counsel, Naval Medical Logistics Command stated that the power to re-delegate
authority must be specifically granted beforehand, and this was not done. The
Counsel believes the issue is significant because only a contract which was
properly awarded under Section 1091, title 10, United States Code, can trigger the
medical malpractice protection provided under Section 1089, title 10, United
States Code. The Counsel was also concerned that FBA contracts did not provide
adequate procedures or definition of responsibilities for contract administration,
increasing the likelihood of unacceptable performance levels and ineffective
remedies. The matter is further complicated by the fact that the DoD medical
facilities’ privity of contract is with the FBA, rather than the health care
professionals performing the services. That means the medical facility must work
through the FBA rather than directly with the contractor to enforce the terms of
the contract.




                                      7
DoD Guidance
    We believe that the Assistant Secretary of Defense (Health Affairs) should make
    a determination on the appropriateness of using FBA contracts to acquire medical
    services for the military health system. The determination should be based on a
    legal opinion regarding DoD use of FBA financial and administrative support
    service authority. Additionally the determination should consider the medical
    service contracting capability that exists in DoD. If the determination is made
    that the use of FBA contracts is appropriate for acquiring medical services, then
    the Assistant Secretary should issue guidance on the use of those contracts. Such
    guidance should cover, at a minimum:

           •   the use of annual appropriations for services provided in subsequent
               years,

           •   the appropriate type of contracting vehicle to use (personal or
               non-personal),

           •   the acceptable amount of surcharges and disclosure of surcharge
               amounts in the interagency agreements, and

           •   whether the military health system will be allowed to use FBA
               contracts that might exclude medical providers for their inability to
               provide non-medical services.

    We will forward a copy of this report to the Department of the Treasury Inspector
    General’s Office so that it can take any action it deems necessary concerning the
    interpretation of financial and administrative support services provided by the
    FBA.


Ongoing Review
    We briefed the Director, Defense Procurement and Acquisition Policy on our
    concerns regarding the appropriateness of acquiring medical services through the
    FBA. The procurement officials stated that in accordance with section 824 of the
    National Defense Authorization Act for FY 2003, they are currently assessing the
    costs and benefits associated with using non-DoD agencies to satisfy contracting
    requirements in FY 2000 through FY 2002. Section 824 of the Act resulted from
    a provision in the Senate bill (S. 2514, section 815). When discussing that
    provision, the Senate Armed Services Committee expressed concern that DoD
    continues to order excessive quantities of products and services through contracts
    entered by other Federal agencies and departments whose personnel have, in
    many cases, less expertise in acquiring the specific products or services than DoD
    personnel (Senate Report 107-151, accompanying S. 2514). Section 824 of the
    Act requires DoD to determine the amount paid in surcharges for acquiring
    products and services under contracts entered by other Federal agencies, and
    whether these funds could be put to better use.



                                         8
Management Comments on the Finding and Audit Response
    The Director, Defense Procurement and Acquisition Policy expressed concern
    that in the draft to this report we incorrectly cited Section 824 of the National
    Defense Authorization Act for FY 2003 as containing specific language
    indicating that DoD is acquiring services from other Federal agencies with less
    expertise than in-house DoD personnel. That language was taken from committee
    language in Senate Report 107-151, discussing the Senate provision from which
    Section 824 was derived, and we have made appropriate corrections to the report.


Recommendations, Management Comments, and Audit
  Response
    Deleted and Renumbered Recommendations. According to the Director,
    Defense Procurement and Acquisition Policy, Section 824 of the National
    Defense Authorization Act for FY 2003 requires summary-level data on the total
    amount paid during FYs 2000 through 2002 by DoD to other Federal agencies as
    fees, along with a determination of whether the total fees are excessive and a
    description of associated benefits received by DoD. The Act does not require
    DoD to review specific categories of products and services, such as medical
    services. Additionally, the Director stated that the Office of the Assistant
    Secretary of Defense (Health Affairs) is the appropriate organization for
    determining whether DoD should continue using FBA contracts to acquire
    medical services. Accordingly, the Director nonconcurred with Draft
    Recommendation 2. to include DoD acquisition of medical services through the
    FBA in the statutory review of interagency contracts required by the National
    Defense Authorization Act for FY 2003. As a result of the Director’s comments,
    we have deleted Draft Recommendation 2. Draft Recommendations 1.a. and 1.b.
    have been renumbered as Recommendations 1. and 2., respectively.


    We recommend that the Assistant Secretary of Defense (Health Affairs):

           1. Determine whether the military health system should continue to
    use the Franchise Business Activity to acquire medical services for DoD. The
    determination should be based, in part, on a legal opinion regarding DoD use
    of Franchise Business Activity financial and administrative support service
    authority.

           2. If the determination in Recommendation 1. is that DoD
    components may use the Franchise Business Activity contracts, the Assistant
    Secretary should coordinate with the Director, Defense Procurement and
    Acquisition Policy to issue guidance concerning the use of those contracts.
    The guidance, at a minimum, should discuss:


                                        9
             a. The use of annual appropriations for services performed in
subsequent years.

             b. The appropriate type of contracting vehicle to use (personal
or non-personal).

            c. The acceptable amount of surcharges and disclosure of
surcharge amounts in the interagency agreements.

             d. The use of Franchise Business Activity contracts that might
exclude medical providers who do not provide non-medical services.

Management Comments. The Assistant Secretary of Defense (Health Affairs)
concurred with the finding and recommendations. The Office of General
Counsel, TRICARE Management Activity, in conjunction with the Office of
General Counsel, DoD, issued a legal opinion stating that there is no legal
authority to use the FBA to enter into personal services contracts to carry on
health care responsibilities in military treatment facilities. Guidance will be
issued to the Military Departments regarding use of the FBA.




                                   10
Appendix A. Scope and Methodology
   We queried the DoD Contract Action Reporting System to determine the overall
   scope of non-TRICARE medical service contracting throughout the Military
   Departments. To gain an understanding of how DoD medical facilities acquire
   medical services and to determine what guidance and controls exist regarding the
   use of FBA contracts, we visited and held discussions with personnel from the
   Army Medical Command, the Army Health Care Acquisition Activity, the Naval
   Medical Logistics Command, the Office of the Air Force Surgeon General,
   WRAMC, WHMC, and the FBA. We could not determine the extent to which
   DoD obtains medical services through the FBA because the contract actions were
   not reported in the DoD Contract Action Reporting System, and DoD did not
   know the extent to which FBA contracts were used. Thus, we relied on the FBA
   to estimate DoD funds spent to acquire medical services through FBA contracts.
   We also relied on the FBA to determine surcharge percentages paid, because the
   fees were not visible to DoD. Because the FBA is not a DoD Component and we
   did not have access to their supporting detail, we did not verify the accuracy of
   the estimates or the surcharge fee percentages.

   We examined documents pertaining to two FBA contracts that were used by
   WRAMC and WHMC in FY 2002, to acquire about $6.9 million and $4.4 million
   respectively, for medical services. The documents in our review were dated
   January 6, 1995, through March 4, 2003. Specifically, we examined documents
   pertaining to the solicitation and award of FBA contracts and the interagency
   agreements established between the FBA and the two DoD medical facilities we
   reviewed. Additionally, we examined the blanket task order used by WRAMC.
   We reviewed 19 individual purchase calls, totaling about $0.9 million, placed
   against the blanket task order at WRAMC, and five task order requests, totaling
   about $2.2 million at WHMC, that were used to acquire health care providers,
   such as nurses and medical technicians. We were not aware that the Navy was
   using FBA contracts to acquire medical services until after we completed our
   fieldwork. Therefore, we did not review any Navy procurement using FBA
   contracts. We reviewed public laws, the FAR, and DoD and Military Department
   regulations relating to the acquisition of medical services and the use of FBA
   contracts. We did not review medical facility management of funds transferred to
   the FBA or the validity of contract payments made.

   Our audit objective was to evaluate contracting agency and program office
   procedures for the award and administration of medical service contracts,
   excluding TRICARE contracts, and to evaluate the management control program
   applicable to the audit objective. During the audit process, we learned that the
   Military Departments were acquiring health care services (for example,
   physicians, nurses, laboratory and pharmacy technicians) through FBA contracts.
   Because the use of FBA contracts is a relatively new method of acquiring medical
   services that could have a significant impact on the Military Departments, this
   report addresses the use of FBA contracts. This audit was performed from April
   2002 through April 2003 in accordance with generally accepted government
   auditing standards.




                                      11
       This audit report addresses management controls, but does not address
       management’s self-evaluation related to procuring medical services through the
       FBA. Specifically, this report identifies a lack of clear policies and procedures
       related to contracting for medical services through the FBA. Recommendations
       1. and 2., if implemented, will increase visibility of and strengthen management
       controls over the acquisition of medical services through franchise funds such as
       the FBA. Other issues regarding medical service contracts and management’s
       overall self-evaluation related to procuring medical services will be evaluated in a
       subsequent summary report, including material weaknesses, if any.

       Use of Computer-Processed Data. Although we used the DoD Contract Action
       Reporting System to determine the scope of medical contracting for supplemental
       medical care for the original audit objectives, we found that the system did not
       include FBA contracts. Although we used the Reporting System to estimate the
       scope of non-TRICARE medical services contract dollars, we did not base our
       audit conclusion on that data and, accordingly, did not validate its reliability. We
       did not use computer-processed data to form our audit conclusions about the use
       of FBA contracts.

       General Accounting Office High-Risk Area. The General Accounting Office
       has identified several high-risk areas in DoD. This report provides coverage of
       the DoD Contract Management and the DoD Support Infrastructure Management
       high-risk areas.


Prior Coverage
       During the last 5 years, the Army has issued one report on the use of FBA
       contracts to acquire medical services. Prior coverage concerning contracting will
       be provided in a separate report. Army reports can be accessed over the Internet
       at https://www.aaa.army.mil from certain domains.

Army
       Army Audit Agency Report No. A-2002-0562-IMH, “Management Controls for
       Reimbursable Orders, U.S. Army Garrison Fort Sam Houston,” September 16,
       2002




                                            12
Appendix B. Report Distribution

Office of the Secretary of Defense
Under Secretary of Defense for Acquisition, Technology and Logistics
 Director, Defense Procurement and Acquisition Policy
Under Secretary of Defense (Comptroller)/Chief Financial Officer
 Deputy Chief Financial Officer
 Deputy Comptroller (Program/Budget)
Under Secretary of Defense for Personnel and Readiness
Assistant Secretary of Defense (Health Affairs)
General Counsel

Department of the Army
Inspector General
Auditor General, Department of the Army
Surgeon General, Department of the Army

Department of the Navy
Naval Inspector General
Auditor General, Department of the Navy
Chief, Bureau of Medicine and Surgery

Department of the Air Force
Assistant Secretary of the Air Force (Financial Management and Comptroller)
Auditor General, Department of the Air Force
Surgeon General, Department of the Air Force

Other Non-DoD Organizations
Office of Management and Budget, National Security Division
Inspector General, Department of the Treasury




                                          13
Congressional Committees and Subcommittees, Chairman and
  Ranking Minority Member
Senate Committee on Appropriations
Senate Subcommittee on Defense, Committee on Appropriations
Senate Committee on Armed Services
Senate Committee on Governmental Affairs
House Committee on Appropriations
House Subcommittee on Defense, Committee on Appropriations
House Committee on Armed Services
House Committee on Government Reform
House Subcommittee on Government Efficiency and Financial Management, Committee
  on Government Reform
House Subcommittee on National Security, Emerging Threats, and International
  Relations, Committee on Government Reform
House Subcommittee on Technology, Information Policy, Intergovernmental Relations,
  and the Census, Committee on Government Reform




                                        14
Assistant Secretary of Defense (Health Affairs)
Comments




                       15
Final Report
 Reference




Renumbered
as Recom-
mendations
1. and 2.



Deleted




               16
Defense Procurement and Acquisition Policy
Comments
                                             Final Report
                                              Reference




                                             Deleted




                      17
Final Report
 Reference




Revised




               18
Team Members
The Readiness and Logistics Support Directorate, Office of the Deputy Inspector
General for Auditing of the Department of Defense prepared this report.
Personnel of the Office of the Inspector General of the Department of Defense
who contributed to the report are listed below.

Shelton Young
Michael A. Joseph
Scott J. Grady
Dawn Borum
Robin Parrish
Elmer J. Smith
Eva Zahn
William Lanyi
Elizabeth L. N. Shifflett
Susann L. Cobb
